<html>
<title> - CHARTING THE ARCTIC: SECURITY, ECONOMIC, AND RESOURCE OPPORTUNITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






  CHARTING THE ARCTIC: SECURITY, ECONOMIC, AND RESOURCE OPPORTUNITIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                AND THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2015

                               __________

                           Serial No. 114-127

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-634PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan

                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHR ISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
DANIEL DONOVAN, New York




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Admiral Robert Papp, Jr., USCG, Retired, U.S. Special 
  Representative for the Arctic, U.S. Department of State........     7
Vice Admiral Charles D. Michel, USCG, Vice Commandant, U.S. 
  Department of Homeland Security................................    23
Rear Admiral Timothy C. Gallaudet, USN, Oceanographer and 
  Navigator, U.S. Department of Defense..........................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Admiral Robert Papp, Jr., USCG, Retired: Prepared statement......    10
Vice Admiral Charles D. Michel, USCG: Prepared statement.........    25
Rear Admiral Timothy C. Gallaudet, USN: Prepared statement.......    34

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Questions submitted for the 
  record to Admiral Robert Papp, Jr., and Vice Admiral Charles D. 
  Michel, USCG...................................................    52

 
  CHARTING THE ARCTIC: SECURITY, ECONOMIC, AND RESOURCE OPPORTUNITIES

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                       House of Representatives,

       Subcommittee on Europe, Eurasia, and Emerging Threats and

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:07 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the Subcommittee on Europe, Eurasia, and Emerging 
Threats) presiding.
    Mr. Rohrabacher. This hearing will come to order. This 
hearing is called to examine the Arctic-focused agenda, and I 
am pleased to be joined by Chairman Duncan and members of the 
Western Hemisphere Subcommittee.
    Just under 1 year ago, the Europe, Eurasia and Emerging 
Threats Subcommittee held its first hearing on the Arctic. 
Since then, the United States has assumed the chairmanship of 
the Arctic Council, and the level of congressional interest in 
our Government's Arctic agenda has grown. While the Alaskan 
congressional delegation, Don Young in particular, or as--or he 
perhaps is the whole delegation, has been in the forefront of 
efforts to champion the U.S. Arctic positions.
    Elected representatives from the lower 48 have increasingly 
come to appreciate the potential of the Arctic to benefit the 
entire country.
    As I noted last time, while we all recognize the receding 
ice, the purpose of this hearing is not to debate science, 
whether or not what is taking place is part of a natural cycle, 
or whether it can be traced to the human production of CO2. The 
fact remains the Arctic is in stark contrast to the Antarctic, 
and is now more accessible than it has been for decades.
    The purpose of today's hearing is to ask and discuss what 
are we doing with the Arctic? And what do we want to do with 
the Arctic? Scientific programs and research into topics such 
as ocean acidification and science of the ice flows help us to 
understand the Arctic environment, but to what end? Is our 
Government working with private industry and our allies, such 
as Canada, to build the infrastructure which enables strategic 
economic development, mineral, oil, natural gas extraction, as 
well as the possibility of commercial fishing? Or, as I fear, 
is this administration so focused on global warming, that we 
are passing up ways of expanding prosperity and the well-being 
of these emerging opportunities in the Arctic?
    Let me note that while sometimes the rhetoric associated 
with the so-called race for the Arctic can be a bit 
exaggerated, the Arctic is not immune from the same forces of 
geopolitics which apply to other areas of the globe. One 
disturbing element, at least to me, of the Arctic discussion is 
the Cold War analogy that everything Russia is doing in the 
Arctic is a national security threat. We should not be finding 
ways--excuse me. We should be focusing on finding ways to 
cooperate in mutually beneficial development with Russia rather 
than approach the Arctic issues with hostility and 
belligerence.
    Admiral Papp, during your testimony in December, you laid 
out a vision for the U.S. chairmanship of the Arctic Council. I 
look forward to hearing about the progress we have made and how 
those concepts have been put into action.
    Admiral, and I will pronounce it Gallaudet----
    Admiral Gallaudet. Gallaudet, sir.
    Mr. Rohrabacher. Okay--and Michel, the subcommittee--we all 
on the subcommittee look forward to learning about how the 
Coast Guard and Navy are preparing to carry out their missions 
in the Arctic and where those lines of authority rest at this 
moment.
    It would be especially useful to hear about how our country 
is working with our allies and Arctic partners to leverage and 
to build on the experiences that we have so far in order to 
have some real progress that we can demonstrate in the years 
ahead. Additionally, is the current division of labor between 
the Coast Guard and the Navy the best way to carry out our 
Arctic strategy, or might some realignment allow our Government 
to be more effective? I would be interested to hear your 
opinions on that.
    I hope that our hearing today will help illuminate answers 
to these and other questions, so I thank you all for appearing 
today.
    And without objection, all members will have at least 5 
legislative days to submit additional written questions or 
extraneous materials for the record.
    And with that, Mr. Meeks, you are recognized.
    Mr. Meeks. Thank you, Chairman Rohrabacher. And it is great 
to be with Chairman Duncan and Ranking Member Sires. And I 
thank everybody for holding this hearing to provide us with an 
opportunity to examine our policy toward the Arctic and the 
opportunities within the region. At the 6-month mark of the 
American chairmanship, we can now honestly assess the progress 
thus far, and the challenges that lie ahead. The Arctic has 
become a popular topic recently. It is the new geopolitically 
relevant region where energy, trade, military, and 
environmental interests intersect and perhaps clash. I am 
specifically concerned about our economic interest in the 
region, given the changing landscape. And when I say ``changing 
landscape,'' I mean it literally.
    Mr. Rohrabacher. Changing landscape.
    Mr. Meeks. I am referring to the melting ice caps, and the 
subsequent new trade routes, reachable--trade routes, reachable 
resources, and uncharted territory. Recently, we saw, for 
example, where Shell abandoned its Arctic drilling plans due to 
low energy prices, regulatory pressure, and a misunderstanding 
of the geology. There are other private actors that are 
considering business and trade in the region as well.
    In America's role as chairman of the Arctic Council, what 
drives the economic opportunities in the region, and are we 
taking the environmental impact of economics into account? We 
need look at all of those things. Furthermore, from a 
geopolitical perspective, one can sense that a number of 
nations are scrambling to be the first mover in the territory. 
Russia, for example, is ahead of everyone in the ice-breaking 
capabilities. This has both economic and military implications. 
And I would like to encourage cooperation between all of the 
actors and acknowledge the Arctic Council for being an 
instrumental organization in the effort to bring all concerned 
nations together, including China, because it is important for 
every nation that we have a clear understanding, because it 
affects all of us that share this place that we call the Planet 
Earth.
    You know, on one of my first trips that I was able to take 
as a Member of Congress back in 1999, I had always dreamed of 
going to Alaska, and I saw a trip, and I went to Alaska. And if 
the truth be told, I did not know what I was in for. I thought 
that the trip to Alaska was going to take me someplace where I 
had a nice hotel room and I would get to see, you know, some of 
the ice by air, and get back home.
    No one--I didn't realize that it was a camping trip. Even 
though I had camping gear, I didn't realize it. I didn't 
realize that they were going to take me on a small plane and I 
would fly over and I would see the glaciers and everything and 
caribou that were moving and--and I didn't realize that polar 
bears and grizzly--so I didn't realize that. I didn't realize 
this little plane would land in the middle of the tundra and 
they would tell this guy from New York City, who had never gone 
camping in his life, that that plane then would take off and 
they would tell me, we will see you in 4 days.
    And so now I am stuck out on this place 4 days, and it was 
fortunately, in one extent, that it was unusually warm at the 
time, but what I did not realize with that warmth came 
trillions of mosquitos. And so I thank God, though, for the 24-
hour sun, so it never got dark and I was able--I had to eat 
some of those mosquitos as we tried to, because that was the 
only thing, but I saw the beautiful landscape. I saw, even 
though it was unusually warm, the rivers full of salmon 
swimming, and some of it still iced. I saw and had and tasted 
some of the greatest tasting water I have ever tasted as it 
came down off the mountain. I can still taste it as I sit here.
    I saw golden eagles flying and hawks with the nests with 
their babies. I saw nature as I had never seen it before. Even 
though while I was there, I was praying saying, God, just get 
me home and I promise you I won't do this again, but when I got 
home, I saw the magnificence of this place, great place that we 
call Alaska, and the significance it has to us as mankind, as 
humankind, no matter where we are or where we come from on this 
planet.
    So the interest that we have in it, I believe, has 
something to do with the essence of who we are as human beings. 
And by every nation being a part of this, and why we are 
chairing it, it is tremendously important to know the outcome 
of what we can do to let--the common good of all of us. If 
there is anything that we should unite on, is that we are 
protecting and making sure that this place we call home, Earth, 
is taken care of, and we weigh and utilize the economic 
opportunities with the environmental concerns and the benefit 
for all.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rohrabacher. Well, I would have to say, that is very 
inspiring. And let me just announce, I will be giving the 
hammer here to--or the gavel, I should say, to Mr. Duncan, who 
is, of course, the chairman of the subcommittee overseeing the 
Western Hemisphere, and I will be gone for about 10 to 15 
minutes and then I will return.
    And, Mr. Duncan, you may proceed and be in charge.
    Mr. Meeks. You don't want me to have the gavel?
    Mr. Rohrabacher. You got to win the election first.
    Mr. Duncan [presiding]. Okay. So I am just going to stay 
here while the chairman is gone. Let me just start by saying 
when I came to Congress, I, too, wanted to go to New York City, 
and while I was in New York City, it was a different 
environment than South Carolina. Meeks, you are funny.
    I am glad you had a good experience up in Alaska; beautiful 
part of the world, as Chairman Young will say.
    But today we meet to examine the enormous potential of the 
Arctic, a region that is too often overlooked and 
misunderstood. Lands and ocean above the Arctic Circle are home 
to oil, minerals, and other natural resources. These resources 
also represent economic opportunity in the form of investment 
and job creation. Beyond these considerations, there are also 
major security components to the Arctic puzzle. All these 
issues must be addressed during our Nation's tenure at the helm 
of the Arctic Council, as it provides an excellent platform for 
the advancement of U.S. interests.
    The energy opportunity in the U.S. Arctic territory is 
vast. There is an area offshore of Alaska totaling about 1 
billion acres. Reportedly 6,000 miles of coastline as a 
potential for energy development. Moreover, a change in the 
patterns of sea ice will mean that there will be more time to 
explore for oil and gas each year, and also indicates that the 
time frame for offshore drilling and activity will remain open 
longer.
    A 2008 geological survey, Appraisal of Undiscovered Oil and 
Gas Resources, state that the extensive Arctic continental 
shelves may constitute the geographically largest unexplored 
area for petroleum on the earth. Further studies propose that 
30 percent of the planet's undiscovered natural gas and 
possibly 13 percent of undiscovered oil are in the region. 
Developing these energy stores and other mineral resources in 
the north will also generate economic progress in the form of 
investment and jobs. Currently, there is an absence of adequate 
infrastructure for proper development. Many of the natural 
resources are far from existing storage facilities, pipelines, 
and shipping lanes, so construction of better infrastructure 
will represent yet another economic opportunity.
    In terms of security, the Arctic presents a unique set of 
challenges. Traditional concerns exist, such as the ability to 
monitor geopolitical rivals operating in the same area. Both 
Russia and China are active in the north, and an increased U.S. 
presence is necessary to demonstrate that we are not falling 
behind.
    Russia has shown a commitment to establishing a strong 
presence in the far north, beginning construction on bases on 
Alexander and Kotelny Islands. Though these installations are 
mostly suited for limited operational capacity and 
surveillance, the intention is very clear: To project power and 
stake claims in the Arctic. However, security is far more 
complex than merely positioning assets. The Arctic is home to 
some of the harshest conditions on the planet, with strong 
storms and deadly cold temperatures.
    As tourism in the region expands, so, too, must military 
cooperation and preparation. Joint exercises with our Arctic 
Council allies would help countries prepare for any disasters 
that might befall travelers or workers in the north. Search and 
rescue coordination and disaster relief exercises will be 
important initiatives, as more people begin to flow into the 
region and energy activities would certainly expand.
    In the near future, cruises will explore the northern 
coastline of Alaska and Canada, and it is imperative that both 
the U.S. and Canada are prepared to navigate the harsh 
landscape in an event of an emergency. I think we can learn a 
lot from our allies in Canada and other Slavic nations that 
participate already in those search and rescue operations.
    In addition to these concerns, it will be crucial to 
respect the rights of these American citizens already occupying 
the land in the Arctic. I am sure Mr. Young will talk about 
some of those. Each Arctic nation has citizens that already 
inhabit Arctic territory, and it is in the U.S. national 
interest that American citizens and these other citizens join 
in the development through job creation and economic 
opportunity.
    It is crystal clear that the Arctic is not a one-
dimensional area. There are economic, energy, security, 
infrastructure, and human rights concerns in the region, yet 
the Obama administration is focused on climate change at the 
expense of these other important U.S. interests. Indeed, the 
U.S. Arctic Council chairmanship has become a platform for the 
extension of President Obama's climate change agenda, another 
page in the legacy that he has pursued without regard to proper 
constitutional checks and balances in a lot of ways.
    Additionally, the recent decision by the Obama 
administration to close the possibility of drilling in Alaska's 
Arctic Ocean over the next 2 years by terminating options for 
drilling rights is a disservice to our national interests. It 
would be a shame to let the pursuit of a more economically 
viable, energy-rich Arctic fall by the wayside for the U.S. at 
the expense of an aggressive climate change regime, all the 
while, Russia and China stand poised to reap the benefits 
through their active engagement in the far north.
    In conclusion, the Arctic is of immense economic and 
strategic value for the U.S. national interest. We need to make 
sure that we are using the platform of the chairmanship of the 
Arctic Council and our own tools of power to advance U.S. 
national interests, support our allies and friends of similar 
interest in the common area.
    And with that, I will look forward to hearing from the 
witnesses today on how the State Department, the Department of 
Defense, and the Department of Homeland Security are 
cooperating and coordinating to support our interests in the 
far north.
    And with that, I will turn to the ranking member, Mr. 
Sires, for an opening statement.
    Mr. Sires. Thank you, Mr. Chairman. Thank you both Chairman 
Rohrabacher and Duncan, for holding today's timely hearing on 
America's role as an Arctic nation. As a member of both the 
Western Hemisphere and Europe, Eurasia, and Emerging Threats 
Subcommittees, this topic is particularly important to me.
    Since Alaska's inclusion into the Union over 50 years ago, 
the United States has had a stake, an interest in Arctic 
relations. Over the past decade, our interests have increased 
with receding ice caps and diminishing glaciers as a result of 
climate change. The changing geography of the Arctic places the 
United States in a unique position to work with other Arctic 
nations to ensure security of the region, including the people, 
wildlife, and resources. An increase in navigable waters opens 
the platform for new trade routes and economic benefits. Trade 
routes can be shortened by as much as 30 percent, saving money 
and avoiding prior infested waters. Even though these Arctic 
routes aren't safe at the moment, that time is approaching, and 
countries like Russia and China are greatly interested in 
increasing their footprint in the Arctic and securing these 
routes for themselves.
    The melting ice in the Arctic also poses security concerns 
we need to consider. Within the last few years, we have 
witnessed Russia's continued pattern of encroachment with 
Ukraine, Crimea and Syria. Now Russia is racing to control the 
Arctic, operating over 30 icebreakers, where the U.S. only has 
two. We must remain vigilant to the growing aggression and 
ensure that it does not spread to the Arctic, running counter 
to U.S. interests.
    The administration's selection of Admiral Papp as the first 
U.S. Special Representative for the Arctic and the 
implementation of the national strategic--of the national 
strategic for the Arctic region are encouraging signs of 
increased engagement in the region.
    I look forward to hearing from Admiral Papp and other 
members of the esteemed--of the panel on how Congress can best 
work with the administration to realize the goals and our plans 
for the high north.
    And I wanted to say that if you go to my friend, Don 
Young's office, half of the wildlife in Alaska is hanging in 
his office. Beautiful ones.
    Mr. Duncan. Meeks has flashbacks when he goes there.
    As the one Member of Congress that has a territory, a 
district that actually touches the Arctic, so I am going to use 
some leniency here and recognize the gentleman from Alaska for 
an opening statement.
    Mr. Young. Thank you, Mr. Chairman, and thank you for this 
important hearing. And I want to thank the people in the Arctic 
Council. I will tell you, Alaska sort of feels like the ugly 
debutante. No one paid any attention to the Arctic until 
recently. We kept saying, we are here, we are here, and there 
was little acknowledgement of, and now we have a great deal of 
interest. And I think it is our responsibility as a Congress, 
especially this committee, that we look at the total picture. I 
don't want us to become the spokeschild for the climate change 
battle. I want us to say, what can we do to adapt to it, how we 
can compete and work with the neighbors that are trying to 
grasp it right now?
    We talk about Russia as a security issue, but they really 
want to claim that area with China, and we sit on our hands. We 
have two worn-out icebreakers, which I funded for 40 years ago. 
We need new icebreakers, we need new docks. We don't have any 
docks. And there has been a lack, and this is what this 
council, this Arctic Council, and this group here has to 
recognize the economic side of it, not just the environmental 
side of it.
    This Congress has to recognize we have to put an 
infrastructure in place. Where will we build our docks? Will we 
be able to service the navigational needs? What role will the 
Navy play? What role is the Coast Guard playing? What role is 
the Corps of Engineers? There has to be an Arctic policy. It 
can be established through this group right here, but you 
better work together. And if all I hear about, you know, we are 
not going to listen to the local people, which just recently 
occurred with this administration. We talk about the indigenous 
people, they are not being heard. They are being heard by the 
industry, but not this administration. This is a big picture. I 
represent that whole State, every lick, and including the 
mosquitos, Mr. Meeks.
    Did they give you a 410 with your survival gear?
    Mr. Meeks. They did.
    Mr. Young. Because 410s will shoot the mosquitos, by the 
way, and knock them out.
    So I want this hearing to bring out where are we going to 
be 10 years, 5 years, 2 years, 1 year, next month. I don't want 
to hear a lot of talk, we have a tendency to do that, and allow 
Russia and China to take over the Arctic. It is too important 
to this Nation. And without Alaskans, we wouldn't even have 
this hearing. People forget that. That is why we are an Arctic 
nation. But the potential of the Arctic nation, the potential 
of the Arctic, not only the minerals, but the potential to 
improve the well-being of the people of the United States has 
to be done with a concrete plan with everybody working 
together.
    Thank you, and I yield back.
    Mr. Duncan. I thank the gentleman.
    And other members are advised they can submit opening 
statements for the record.
    We also have a lighting system for our panelists. You will 
be given 5 minutes. If you could stay as close to that as 
possible. Your biographies are already provided to the members, 
so we are not going to read those.
    And I will now recognize Admiral Papp for a 5-minute 
opening testimony. Admiral.

  STATEMENT OF ADMIRAL ROBERT PAPP, JR., USCG, RETIRED, U.S. 
SPECIAL REPRESENTATIVE FOR THE ARCTIC, U.S. DEPARTMENT OF STATE

    Admiral Papp. Well, thank you, Chairman Duncan. And I look 
forward to seeing Chairman Rohrabacher back here in a little 
bit. Ranking Member Meeks, Ranking Member Sires, and welcome as 
well to Chairman Young, who has been such a great supporter to 
us for so long. And, yes, sir, I have had the taxidermy lecture 
in the office in the past, and I agree with you, it is 
educational.
    I know it is perfunctory to say that we are delighted to be 
here. I am, in fact, delighted to be here, because I was 
supposed to be in Belgium today speaking at an Arctic 
conference, and all things considered now, I think I would 
rather be here, but also, because we get a chance to talk about 
this program and give it broader exposure. So thank you for 
having me here.
    As the Special Representatives for the Arctic, my broad 
charge is to lead the Nation's international efforts to promote 
our priorities to advance U.S. policy in the Arctic region. I 
also represent the Department of State at the Arctic Executive 
Steering Committee that was a result of the President's 
Executive order on implementation of the Arctic Strategy.
    The State Department recognizes that significant changes in 
the Arctic are creating new challenges and opportunities for 
the United States and other Arctic nations. A rapidly warming 
Arctic offers new shipping routes, increased opportunities for 
trade and tourism, and the potential for resource exploitation. 
But it also threatens traditional ways of life and increases 
the risk of environmental disasters.
    Our Arctic engagement takes place primarily through the 
Arctic Council, and the Arctic Council is the preeminent forum 
for international diplomacy on Arctic matters. The United 
States assumed the chairmanship at the Arctic Council in April 
of this year. Our chairmanship theme, One Arctic: Shared 
Opportunities, Challenges, and Responsibilities, echoes the 
belief that all eight Arctic states must work together to 
address the challenges of a changing Arctic, to embrace the 
opportunities it presents, and to face the responsibilities we 
all have as stewards of this vast region.
    We are already a quarter of the way through our U.S. 
chairmanship, and have already convened two meetings of the 
senior Arctic officials and several meetings of the council's 
various working groups, task forces, and expert groups. These 
groups are pursuing an ambitious work plan for the next 2 years 
under the themes that we have chosen to highlight during the 
U.S. chairmanship: The first, Arctic Ocean Safety Security and 
Stewardship; the second, Improving Economic and Living 
Conditions; and the third, Addressing the Impacts of Climate 
Change.
    We are off to what is perhaps the most aggressive start to 
an Arctic Council chairmanship. The April ministerial in 
Iqaluit, Canada, was followed in rapid succession by a kickoff 
event at the State Department, and then the earliest convening 
ever of the senior Arctic officials in memory.
    We have already just recently conducted a second senior 
Arctic official meeting in Anchorage, Alaska, and initial 
meetings of all working groups. We have cosponsored an Arctic 
energy summit in Fairbanks, Alaska, and hosted an Arctic search 
and rescue exercise with the United States Coast Guard and the 
Department of Defense.
    I believe our most significant accomplishment to date has 
been the conference on Global Leadership in the Arctic, 
Cooperation, Innovation, Engagement and Resilience, otherwise 
known by the acronym GLACIER, which took place in late August 
in Anchorage. While technically not an Arctic Council event, 
GLACIER served as a centerpiece of the mission of the U.S. 
chairmanship to broaden awareness of the Arctic, both 
domestically and abroad. GLACIER featured keynote speeches from 
Secretary Kerry and President Obama and other senior U.S. 
officials.
    Twenty-one countries participated in GLACIER, including 
seven foreign ministers. The White House and Department of 
State are continuing to build upon the momentum created by 
GLACIER, fulfilling the obligations as set forth in the 
Presidential commitments and strengthening relationships with 
Alaskans in our American Arctic.
    It is important to note that the United States and other 
Arctic states are pursuing our mutual interests in what is 
currently a safe and stable Arctic region marked by 
international cooperation and governed by international law. We 
cannot ignore that our international efforts in the Arctic are 
taking place during a difficult time in our relationship with 
Russia. Russia's annexation of Crimea, its aggression in 
Ukraine, and its efforts to intimidate its neighbors are an 
affront to a rules-based international system, and put at risk 
the peace that we and our allies have worked so hard to achieve 
in Europe.
    The international community's disagreements with Russia 
have complicated our efforts in the Arctic, but have not 
stalled them. It is not business as usual, but we have worked 
with Russia on Arctic issues during past political crises, and 
are maintaining multilateral activities within the Arctic 
Council, such as those to protect the Arctic environment, 
ensure maritime safety, and promote scientific cooperation.
    The Arctic region has enormous and growing geostrategic, 
economic, environmental, and national security implications for 
the United States.
    We are at a pivotal point in history as the Arctic is 
rapidly changing, creating significant challenges and 
opportunities for every Arctic nation. The challenge of 
charting a course toward a sustainable future in the Arctic is 
important for all of us. The world looks to the United States 
for leadership, and as chair of the Arctic Council, we have a 
unique opportunity to demonstrate our leadership as an Arctic 
nation. In this role, we look forward to advancing national 
priorities, pursuing responsible stewardship, and strengthening 
international cooperation in the Arctic.
    So I, once again, thank you for the opportunity to testify, 
and I look forward to your questions. Thank you.
    [The prepared statement of Admiral Papp follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                              ----------                              

    Mr. Duncan. Thank you, Admiral.
    The Chair will now recognize Vice Commandant Michel for 5 
minutes.

    STATEMENT OF VICE ADMIRAL CHARLES D. MICHEL, USCG, VICE 
        COMMANDANT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Michel. Well, thank you, Chairman Duncan, Ranking 
Member Meeks, Ranking Member Sires, Representative Young, 
distinguished members of the subcommittees. Thank you for the 
opportunity to testify before you today on Coast Guard 
operations in the Arctic, the Coast Guard's Arctic strategy, as 
well as our international and domestic efforts to ensure safe, 
secure, and environmentally responsible maritime activity in 
this region.
    Mr. Chairman, Coast Guard and our predecessor agencies have 
been operating in the Arctic since 1867, when Alaska was 
purchased from Russia. For example, the Revenue Cutter Bear was 
essentially the sole face of Federal presence to many remote 
parts of the territory of Alaska for over 40 years. Then, as 
now, our missions are to enforce U.S. laws and regulations, 
conduct search and rescue, assist scientific exploration, 
foster navigation safety and environmental stewardship, and 
provide assured access in preserving U.S. sovereignty.
    Unlike the days of the Revenue Cutter Bear, today we find 
significant growth in human activity because the region is more 
accessible. There is water where there used to be ice, and the 
Coast Guard must increasingly be present to exercise our 
authorities and protect the Nation's maritime interests.
    I have spent a significant amount of my career focused on 
Arctic and polar issues, and have traveled throughout the polar 
regions to better understand the challenges of operating in 
these extreme environments, the range of national and 
international issues and the impacts of increasing human 
activity. I can personally attest that these regions are 
remote, hostile, and unforgiving, distances are vast, weather 
is a constant factor, ice conditions are very dynamic, and 
infrastructure is almost nonexistent.
    Operations in both polar regions demand detailed and 
deliberate planning supported by specialized, reliable, and 
unique equipment, and they often demand close coordination with 
Federal, State, local, academic, industry, and indigenous 
community stakeholders. The polar regions also offer valuable 
opportunities for international cooperation and 
interoperability.
    The national strategy for the Arctic region and its 
implementation plan establish U.S. Arctic policy. The Coast 
Guard's supporting Arctic strategy includes three strategic 
objectives: Improving awareness, modernizing governance, and 
broadening partnerships. These three objectives directly 
support national policies.
    With these objectives in mind, I would like to highlight 
four specific areas of emphasis. First, the Coast Guard 
conducts mobile and seasonal operations in the Arctic region as 
maritime activity and environmental conditions warrant. 
Highlights from this year's Arctic Shield deployment include 
establishing temporary forward operating locations along the 
north slope. The national security cutter Waesche and high 
endurance cutter MUNRO operating in the Chuckchi and Bering 
Seas conducting maritime patrols and providing response and 
command and control capabilities during Shell's drilling 
operations. The medium icebreaker Healy conducted a perimeter 
circuit of the U.S. exclusive economic zone and an historic 
expedition to the North Pole.
    Second, in facilitating safe global shipping, the Coast 
Guard was instrumental in the development of the Polar Code, a 
suite of safety and environmental protection regulations 
adopted by the International Maritime Organization in 2015. 
These regulations will enter into force in 2017.
    Third, the Coast Guard continues to provide strong support 
to the Arctic Council and the U.S. chairmanship, including 
policy and programmatic support as well as being a key sponsor 
of various contingency response agreements and exercises.
    Fourth, the Coast Guard is increasing engagement with peer 
maritime services from all Arctic nations, including Russia. 
Three weeks ago, the Arctic Coast Guard Forum was formally 
established at the U.S. Coast Guard Academy, with eight Arctic 
nations' heads of Coast Guards or equivalents, and Secretary 
Johnson in attendance.
    Before closing, I want to emphasize the importance of 
assured access to the polar regions. The ability to operate 
year round safely and reliably, means having heavy icebreakers. 
Year-round access is vital to our Nation's security and 
economic interests. In August, at the GLACIER Summit in 
Anchorage, Alaska, the President expressed clear intent to 
maintain our ability to access polar regions year round, 
affirmed the Coast Guard's responsibility to provide heavy 
icebreaking capability, and announced plans to accelerate the 
acquisition of new heavy icebreakers.
    Today the Coast Guard operates two icebreakers in the polar 
regions, the heavy icebreaker Polar Star, and the medium 
icebreaker Healy, which mainly provides scientific support to 
the National Science Foundation.
    Polar Star is over 40 years old, and our only other heavy 
icebreaker, Polar Sea, is currently inoperable. The Coast Guard 
needs at least two heavy icebreakers to provide year-round 
assured access, and self-rescue-ability in the polar regions. 
The Coast Guard is moving forward at best speed to meet the 
President's intent to recapitalize our aging heavy icebreaker 
fleet, and we look forward to working with Congress on this 
important effort.
    Thank you for the opportunity to testify before you today, 
and thank you for your support of our men and women in uniform. 
I look forward to your questions. Thank you.
    [The prepared statement of Admiral Michel follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                              ----------                              

    Mr. Duncan. Thank you, Commandant.
    The Chair will now recognize Admiral Gallaudet.

     STATEMENT OF REAR ADMIRAL TIMOTHY C. GALLAUDET, USN, 
    OCEANOGRAPHER AND NAVIGATOR, U.S. DEPARTMENT OF DEFENSE

    Admiral Gallaudet. Good afternoon, Chairman Rohrabacher, 
Chairman Duncan, Ranking Member Meeks, and Ranking Member 
Sires, and other members of the subcommittee. Thank you for the 
opportunity to discuss the Navy's ongoing future activities in 
the Arctic. I have submitted my full statement to the 
committee, which I ask be made part of the hearing record. I 
will now give a brief opening statement.
    As a global force, the U.S. Navy must be ready to operate 
in all the world's oceans, including the Arctic, as we have 
done for many decades. The risk of conflict in the Arctic 
region is currently low, and as such, the Navy's current 
posture in the region is appropriate to address existing 
defense requirements, primarily through the use of undersea and 
air assets. However, in the event that these requirements 
change, we must be ready to operate in this challenging and 
changing environment.
    In support of the U.S. National Strategy for the Arctic 
Region and the Department of Defense Arctic Strategy, the Navy 
has identified four strategic objectives: Ensure U.S. Arctic 
sovereignty; provide ready Naval forces; preserve freedom of 
the seas; and promote partnerships. The recently revised 
cooperative strategy for 21st century seapower builds on the 
heritage and complementary capabilities of the Navy, Marine and 
Coast Guard team to advance the prosperity and guarantee the 
security of our Nation.
    The sea services will continue to evaluate Arctic access 
and presence requirements, improve maritime domain awareness, 
and pursue cooperation with Arctic partners to enhance maritime 
safety and security of the region.
    The Arctic is a major driver of global climate and weather. 
This region is experiencing change at an accelerated rate 
compared to the rest of the world. The diminishing sea ice is 
gradually opening the region to the potential for increased 
economic activity and tourism, including in commercial 
shipping, fishing, oil and mineral extraction, and tourism. 
These changes will necessitate more accurate and long-range 
forecasts to ensure safe transit in the region.
    The U.S. drew the Arctic roadmap for 2014 to 2030, which 
aligns with the National Arctic Strategy, includes a plan that 
directs the development of Arctic capabilities and capacity in 
step with the changing environmental conditions.
    The Navy will continue to develop our strong cooperative 
partnership with the Coast Guard, in addition to other 
interagency and international Arctic region stakeholders, to 
address the emerging opportunities and challenges caused by the 
seasonal opening of the Arctic Ocean waters.
    The Navy will continue to take deliberate steps to develop 
Arctic expertise through exercises, scientific missions, and 
personnel exchanges that provide sailors with opportunities to 
learn best practices. The Navy will limit surface ship 
operations in periods of projected--pardon me--to periods of 
projected peak activity associated with open water conditions. 
Even during open water conditions, weather and ocean factors, 
including sea ice, must be considered when conducting 
operational risk assessments.
    The Navy will emphasize low cost, long lead time activities 
to match capability and capacity to future demands, and will 
continue to study and make informed decisions on operating 
requirements and procedures for personnel, ships, aircraft, 
with interagency partners and allies.
    Through ongoing exercises, such as the Navy's biennial ice 
exercise, or ICEX, and the associated scientific ice 
expeditions, as well as research in transits through the region 
by Navy submarines, aircraft and surface vessels, the Navy will 
continue to learn more about the evolving operating 
environment.
    The Office of Oceanographer of the Navy and the Office of 
Naval Research are leading efforts to better understand the 
complex polar environment, and, more accurately, predict the 
operational environment in support of safe navigation, 
including research on sea ice dynamics, acoustic propagation, 
Arctic waves and swell, and ocean stratification.
    Our Marginal Ice Zone Research Initiative is an example of 
the types of programs designed to develop new observing 
technologies and gather observations using a mix of autonomous 
sensors and platforms, allowing Navy funded scientists to 
investigate ice ocean atmosphere dynamics and characterize the 
physical processes that govern seasonal evolution of ice cover. 
These observations are critical to enabling improvements in 
numerical predictions of the polar operational environment. 
Understanding the importance of partnerships and addressing 
common concerns, the Navy is partnering with Defense Research 
and Development, Canada on an acoustic propagation project to 
better understand surface losses due to interactions with ice 
cover, and acoustic fluctuations in ambient noise in open water 
during the summer in the marginal ice zone.
    The Navy will continue working to solve the difficult 
problems that arise from Arctic operations to ensure our force 
can operate safely in the Arctic when needed.
    The Navy will likely be called upon to support the U.S. 
Coast Guard and other government agencies by providing marine 
data collection, sea ice forecasting and predictions, and the 
forecasting of hazardous weather and ocean conditions.
    With the Coast Guard, through the implementation of the 
national fleet plan and our respective Arctic strategies, the 
Navy and Coast Guard are identifying opportunities to increase 
commonality and interoperability. While balancing all our 
global defense responsibilities, the Navy will continually 
assess its preparedness in response to changes in the Arctic 
environment and changes in the security environment. Maritime 
security and international naval cooperation have always been 
critical components of U.S. Arctic policy. The Navy's approach 
underscores the need to strengthen our cooperative partnership 
with interagency partners, especially the Coast Guard and the 
Arctic stakeholders.
    The key will be to balance potential investments with other 
service priorities and leverage interagency and international 
partnerships. By taking a proactive flexible approach, the Navy 
can keep pace with the evolving Arctic region while continuing 
to safeguard our global national security interests.
    Again, thank you, Chairman Rohrabacher, Chairman Duncan, 
Ranking Member Meeks, Ranking Member Sires, and other members 
of the subcommittees for the opportunity to appear before you 
today. This concludes my statement, and I look forward to 
answering your questions.
    [The prepared statement of Admiral Gallaudet follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Duncan. Well, I thank all of our panelists. And 
Chairman Rohrabacher will be back in just a minute, but I will 
go ahead and recognize myself for some questions.
    This is a question for all of you. I am fascinated with 
technology and the ability for unmanned technologies, drones or 
underwater vehicles, and is there a possibility to use those in 
the Arctic for exploration, for whatever we are looking for, 
whether it is minerals, whether it is the determination of sea 
ice thickness? I would love to hear your thoughts about using 
technology in that environment and some of the challenges that 
maybe that environment presents to the use of technology. So, 
Admiral.
    Admiral Gallaudet. Thank you, Congressman Duncan. Yes, sir, 
we have the Naval Oceanography program that has significant 
experience in concert with the Office of Naval Research in 
operating unmanned systems across the world to better 
characterize the ocean in support of our warfighting 
requirements, and we have conducted experiments and exercises 
in the Arctic region with autonomous systems and remotely--
pardon me--autonomous sensing systems, including unmanned 
underwater vehicles and drifting floats and profilers, and 
actually we will demonstrate another example of these 
technologies during this ice exercise I alluded to in my 
opening statement.
    There are challenges in operating in this difficult 
environment due to the nature of sea ice and the hazardous 
conditions it imposes on sensors, but as we continue to 
practice and experiment, we are learning how to address those 
challenges. But in my opinion, if you look at the nature of and 
the need for unmanned systems to address the dull, dirty, and 
dangerous type of work they are best suited for, the Arctic is 
an environment perfectly suited for those kind of technologies.
    Mr. Duncan. We are seeing this international space station 
and a lot of satellite data being used looking at the Arctic 
for changes. Do you trust being able to measure sea ice 
thickness or temperature from space?
    Admiral Gallaudet. Yes, Congressman, we do, actually. We 
are actively employing a Canadian synthetic aperture radar 
sensor on one of their satellites as part of the mission of our 
Naval and National Ice Center, which provides operational 
predictions of ice movement, sea ice movement for operating 
forces in the region. This is an international collaborative 
effort with the Coast Guard and their Canadian allies. And, 
again, that center will be used in a prominent way for this ice 
exercise in March 2016 to best locate the ice camp where our 
two submarines will surface and conduct the exercise.
    Mr. Duncan. Yeah. Is there any margin of error there? Have 
you noticed any differences between measurements taken from 
space and what you may find actually on the surface?
    Admiral Gallaudet. Yes, sir. There is a fair amount--there 
is uncertainty. I couldn't characterize the exact amount, and I 
would like to take that for the record, but we have a strong 
confidence in our satellite-sensing capabilities. But as in any 
region, the best use is sort of a suite of capabilities that 
include in situ sensors as well as remote sensors from 
satellite, for example, or radar, and those work in a 
complementary way to best characterize a given physical 
environment. So that applies in the Western Pacific as it does 
in the Arctic.
    Mr. Duncan. All right. Thank you. I am going to shift gears 
here, Admiral Papp. We see China's incursions into the South 
China Sea, specifically the Spratlies. These are atolls, 
underwater shallow reefs that have been built upon. So as they 
continue to violate what I think the international law in the 
South China Sea, has the administration considered moving to 
revoke some of the privileges we have granted China in the 
international community, such as their observer status in the 
Arctic Council?
    Admiral Papp. Well, sir, part of the response has been in 
that particular area of the world, work between the State 
Department, the Department of Defense, freedom of navigation 
exercises demonstrating U.S. will and commitment to stand 
against those--those illegal proclamations of waters in the 
South China Sea, but it is isolated. Much like we have isolated 
the sanctions on Russia in response to their incursions into 
Ukraine and Crimea, yet we are still able to work within the 
Arctic, we are hopeful that we can use the Arctic as a place 
where we can continue to have communications, primarily through 
the Arctic Council where China is an observer state.
    So at this juncture, we are not under consideration--or not 
considering revoking their status as an observer, but certainly 
that is one of the options we could look at in the future.
    Mr. Duncan. Okay. Thank you for that.
    Admiral Gallaudet, this--while the Arctic is a low threat 
environment and likely will remain so, I think our Navy needs 
to be ready to serve anywhere anytime. Does the Navy have the 
gear and infrastructure to operate in the high north if needed? 
Just help educate us, and what some of the challenges and the 
type gear that you see the need for or are utilizing today?
    Admiral Gallaudet. Yes, Chairman Duncan. The short answer 
is yes for the current requirements. And the combatant 
commanders that operate in the Arctic region, the U.S. Northern 
Command and U.S. European Command and U.S. Pacific Command, 
they have not stated a requirement for continuous presence by 
Navy surface vessels. However, our submarine force is well 
equipped to operate in the region and has been doing so since 
1958 with the first under-ice deployment of the USS Nautilus. 
And in fact, just this year, the USS Sea Wolf just returned 
from a very successful operational deployment across the 
Arctic. So--and we--the primary requirements we see today are 
through maritime domain awareness, or Arctic domain awareness, 
and we have aviation assets as well as remote sensing 
capabilities that can fulfill that mission as well as the 
undersea requirements that our submarine force is well suited 
for.
    As I mentioned in my opening statement, our Arctic roadmap 
is designed to look at future requirements in concert with the 
demands that the combatant commanders may levy upon the U.S. 
Navy to ensure that we build that capability and capacity for 
increased surface presence or any other kind of operations.
    Mr. Duncan. Thank you. My time has expired. Except for Mr. 
Meeks, most of the equipment you use may be foreign to most 
members of the committee, but apparently, he was able to 
survive with that, so I am going to turn to him for his line of 
questioning.
    Mr. Meeks. Thank you, Chairman Duncan.
    Let me ask you quickly, first, a few, I guess, 
environmental questions in that the U.S. Geological Survey 
reports that 50 percent of the U.S. coastline is at a high or 
very high risk of sea level rise impact due to global warming-
induced ice melting, threatening many of the 16.4 million 
Americans that live in the coastal flood plain. So my first 
question is, what are the options that are available or that 
are being drafted for those populations in case of imminent 
danger for their lives and their livelihood? Mr. Papp?
    Admiral Papp. Well, Mr. Meeks, the--first and foremost, we 
already have people who are in danger. We have villages along 
the Alaska coastline, Shishmaref, Kivalina, and others that are 
literally falling into the sea now because they are not 
protected by the fast ice along the shore, permafrost melting--
or permafrost thawing, rather, and their villages being overrun 
sometimes by the waves, by the surf, by the storms.
    From all that I have seen, they probably will have to be 
relocated to higher ground. It is going to be tremendously 
expensive. That is not a State Department issue per se, it is 
not even an Arctic Council issue per se, but I know that 
discussions are going on. President Obama himself flew over 
Shishmaref during his 3 days in Alaska this August to be able 
to see firsthand, and he also landed and spoke to some of the 
Alaska natives and residents in the area up there, and has a 
better appreciation of what is going on. And I know the 
interagency is looking at the potential for how do we pay for 
moving the villages or doing other remediation up there.
    Mr. Meeks. So the same thing, environmental concern, you 
know, with these fisheries that I am hearing about, that the 
future of the Arctic, and specifically of its ecosystem is of 
great concern, and I think that is of interest to anyone who is 
interested, as I talked about earlier, in our planet, 
regardless, I think, if you believe in climate change or not. 
The United States and four other nations that border the Arctic 
Ocean plans to prohibit commercial fishing, for example, in the 
international waters of the Arctic until more scientific 
research can be done on how warming seas and melting ice are 
affecting fish stocks.
    So my question is, what are the greatest concerns of the 
administration regarding the Arctic's ecosystem, and are their 
effects reversible? And two, how badly are the fish stocks 
damaged? And are other nations' fishing practices affecting the 
stock of fish regardless of the ban?
    Admiral Papp. Well, sir, the declaration concerning the 
prevention of unregulated high seas fishing in the central 
Arctic Ocean was a great step forward. Ambassador David Balton, 
who also sits as chair of the senior Arctic officials for us 
during our chairmanship, negotiated that with what we called 
the Arctic 5, as you recognized, and it was a good first step 
toward coming to some meaningful action in terms of, first and 
foremost, taking a pause, which we have done in U.S. waters, to 
develop the science to determine what is happening with 
migration of species up toward the Arctic. So we are at work 
with that.
    The other concern, though, is that there is a large portion 
of the central Arctic Ocean that is international waters. Other 
countries can use innocent passage transit through our 
exclusive economic zones and then fish in the Arctic in the 
foreseeable future when there is, at least during the 
summertime, no Arctic ice in the Arctic Ocean.
    So what we hope to do now is take the next step of bringing 
in those other countries, the major fishing countries, like 
China, Korea, Japan, and others and bring them in and start 
working toward an agreement as well on what the future is.
    And it is primarily focused on taking the time to gather 
the science. We have regional fisheries committees all around 
the country, and the world, that look at fish stocks and 
regulate the species so that they will be sustainable. We hope 
to be able to gather the science with this migration of species 
for the Arctic Ocean as well and then in future years, come to 
some regulated process for the fisheries.
    Mr. Meeks. Thank you. Very good point, in my estimation. 
Let me just check one other thing, and I guess I will ask this 
to either--either to the Admiral or to the Vice Commandant. 
That is, the Arctic Council is an excellent area to promote 
cooperation, that is what I am all about, between nations and 
Arctic territories. Nevertheless, there seems to be a push to 
militarize the region. So my question is, are we concerned over 
the military nature of the Arctic development? I think Mr. Papp 
would be the best one to answer that question.
    Admiral Papp. Well, it is definitely a concern, Mr. Meeks. 
And we spent an awful lot of time watching this. I get the 
intelligence briefings within the State Department nearly 
weekly, and I have gone to other three-letter agencies around 
the city as well to make sure that we are monitoring things 
properly. And what I see, and I think we are focused primarily 
on Russia, is a country that is concerned about the security of 
a developing waterway, that is reestablishing facilities, air 
fields and bases along a coastline which encompasses almost 
half the Arctic, and I don't see that as militarization. I 
think you can pick certain aspects of what they are doing and 
trumpet them as militarizing the Arctic. But I have had a 
chance to watch this, and what I think they are doing are, in 
most cases, some reasonable things in terms of being prepared 
for providing security along a sea route that is increasing in 
traffic right now. Some of the things the Russians are doing I 
wish that we were doing along the north slope of Alaska right 
now in terms of preparing infrastructure for future human 
activity.
    Mr. Meeks. Thank you very much. I am out of time.
    Mr. Duncan. Yeah. I thank the ranking member.
    I now turn to the gentleman from Alaska for 5 minutes.
    Mr. Young. I thank the witnesses. I would like to have each 
one of you, without talking to one another, give me a view of 
where Alaska is, where it should be even regardless of Admiral 
Papp's position. What do you see and how are you putting it 
together collectively? I am not happy with the administration. 
I try to keep from getting involved politically, but when they 
shut down all the leases for 2 years without any consultation, 
lack of communication with the Corps of Engineers, where they 
were going to study for a port, they are not doing it. Private 
investment in the local communities was disregarded. And I want 
to know where is the--and who is going to be--should it be 
Congress setting up where Alaska is going to be 10 years from 
now, 20 years from now, 50 years from now, because I see it, I 
read it, I see it, the constant harping on climate change. That 
doesn't change the fact if it is occurring and if man is doing 
it, how are we going to adapt to it?
    We are the only people I know of in this whole chain who is 
not trying to adapt. We are trying to keep things stable. I 
know the Admiral is thinking militarily, Coast Guard is 
thinking about icebreakers, which he is not going to get until 
finally listens to me; Admiral Papp has got a position.
    I don't think there is any correlation with the local 
people, State of Alaska or anybody else. So I need a report 
from you where you think we are going to be, so we can make 
some decisions. Are we going to be an Arctic nation? Or are we 
going to be still playing Mumblety-peg, probably none of you 
ever played Mumblety-peg. It is with a knife--and I am very 
good with that, by the way--and you try to see how close you 
can come to your opponent's toe without hitting it. Not much 
agreement to one another.
    So I am just saying, I want to hear that later on. This is 
part of your role, because I can tell you, other than myself, 
and I have a sketchy view, no one really knows the Arctic. And 
if you don't help us get together where there is going to be a 
plan, then we are not going to be able to achieve it, we will 
sit around and run around the mulberry bush all the time.
    So that is your job, not just Admiral Papp's position, but 
where is the military going to be in this? The Corps of 
Engineers, got out of a study for a port. We going to need a 
port. Might have it later on, but right now.
    Thank you, and I yield back.
    Mr. Duncan. Well, I will turn the gavel back over to Mr. 
Rohrabacher.
    Mr. Young. Mr. Chairman, not because you are coming back, I 
am just leaving. It is not because of you. Thank you.
    Mr. Rohrabacher. [presiding.] Congressman Sires.
    Mr. Sires. Admiral Papp, you know, I was happy to hear that 
we are monitoring what is going on there in terms of the 
Russians, but can you tell me, they have 30 icebreakers, we 
have two. That is a whole fleet to me. Why do they need 30 and 
we can only deal with two? I mean, something--I mean, the 
Russians are not there to go fishing. Why do they need 30? Are 
they trying to establish, I guess, ownership by working in 
these different areas, and then when we raise our voice, they 
will say, well, we have had 30 icebreakers there for years and 
it was never an issue.
    Admiral Papp. Well, yes, sir. The--I would have to say that 
the Russians are much more connected to their Arctic than the 
people of the United States are. Culturally, the Arctic is a 
part of Russia, and they have been involved there much longer, 
and they now have an opening sea route which is directing their 
attention to it even more. And they have half the coastline in 
the Arctic. The Arctic--if you look at a polar projection down 
on the North Pole----
    Mr. Sires. I am looking at it right--is that the same map 
you have got up there?
    Admiral Papp. It is. So the predominant feature, if you put 
approximately 66 north latitude, a circle on there, which I 
don't see on there, but encompassed by the Arctic Circle, it is 
mostly an ocean. So it is a maritime environment, and Russia 
has half the coastline around the Arctic Ocean. So it is 
understandable, when they have larger populations than us, that 
the waterway is open more than ours has been for centuries, 
that they are going to have more activity up there.
    So they are doing legitimate things they do that they 
should be doing as an Arctic nation and preparing for increased 
human activity. I don't begrudge them having the icebreakers. 
We should be doing the same thing. Our Arctic is opening up, 
there is much more human activity, and the United States Coast 
Guard needs to provide assured access for security issues, and 
the only way you can do that, guaranteed year round, is by 
having icebreakers.
    So it is woeful that we have gotten to the point where we 
only have two icebreakers. During World War II, we built eight 
icebreakers and, in fact, were loaning icebreakers to the 
Russians until after World War II. So we have declined quite a 
bit, and we need to be about the business of correcting that.
    Admiral Michel. Yeah. If I can add in here. I agree with 
everything Admiral Papp said. You know, the Russians understand 
that in order to have governance, and in order to enforce 
sovereignty, you have got to have presence. And if you are 
talking about ice-covered waters of this caliber, you need 
heavy icebreaking capability.
    When I came in the Coast Guard, we had five heavy 
icebreakers. When my commandant came into the Coast Guard, we 
had seven heavy icebreakers. We have allowed that to atrophy 
all the way down to one heavy icebreaker that is over 40 years 
old that has been refurbed for another 5 to 8 years of use, and 
one medium icebreaker. That is a long history as to why we find 
ourselves where we do, but I can tell you as a Coast Guardsman, 
right now, I cannot guarantee the United States of America 
global year-round access to all the ice covered areas where we 
have sovereign interests, and that is where we are today, sir.
    Mr. Sires. You want--would you like to add something and 
then----
    Admiral Papp. Well, yes, sir. What I would say, though, is, 
you know, finally, and I used to be working with Admiral 
Michel, and I would say not only did I start my career in 
Alaska 40 years ago, but over the last decade, I have spent a 
lot of time focused on the Arctic and trying to advance the 
issue of building icebreakers.
    You know, the President has committed now, he has committed 
to speeding up the construction of the first icebreaker, and he 
is now talking plural in terms of icebreakers, and I have--I am 
assured that we are moving in that direction. But we got it, we 
got that commitment because we finally got him to Alaska. I 
mean, there are a lot of other issues that our President, our 
administration, our Congress is focused on, and there has been 
a lot of discussion about, well, it is only about climate 
change. Well, yes, that is a legacy issue for this President, 
and it is what brought him to Alaska. And I for one, having 
responsibility for Arctic activities, am glad that he came up 
there for any reason, I don't care what reason, but he finally 
got up there.
    And coming back from Alaska now, these are now top 
priorities for the administration. And I have been over to the 
White House, to the national security staff, and there are 
commitments now to start moving these things forward. So while 
it may not be moving fast enough for some people, I am grateful 
that now we have progress on these issues.
    Mr. Sires. I just find the disparity being so large, how 
can anybody be comfortable with security? I mean, you--what 
were you going to say before?
    Admiral Gallaudet. Yes, sir. I can give you the Navy and 
the Department of Defense perspective on that. With respect to 
Russia, in general, in the Arctic, we do have concerns, and we 
are watching the Greenland, Iceland, U.K. gap very closely, but 
we also see that Russia has not made any attempts to violate 
our territorial seas. We have agreed since 1990 on the Bering 
Strait maritime boundary with Russia, and they are fully 
complying with that.
    And in addition, I must concur with Admiral Papp's comments 
by personal observation. I was in Saint Petersburg, Russia 2 
weeks ago. The Russian's navy chaired shared the Arctic Region 
Hydrographic Commission, and this is under the International 
Hydrographic Organization, which governs all standards and 
cooperation for hydrographic activities and making sea-floor 
maps. And the Russians were very, very open about their 
intentions in the Arctic. And that was exactly what Admiral 
Papp had said. They intend to develop it economically. Their 
security, their growth, and their military is designed 
primarily for that, to provide the security for that economic 
growth of the northern sea route. And we were quite amazed that 
they would be so forthright and open in sharing hydrographic 
data with us, encouraging cooperation. They basically view the 
Arctic as the one region the rest of the world might work with 
them on in view of their aggression in Crimea.
    Mr. Sires. Thank you very much. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much. And I will reserve 
the final area of questions. I did watch some of your testimony 
from the side room before I had to go into that conference 
call.
    Mr. Yoho, would you like to move forward?
    Mr. Yoho. Thank you, Mr. Chairman. Gentlemen, I appreciate 
you being here. I am glad it is a bipartisan group that you let 
the Navy sit with you, too. And, you know, when I look at this, 
I want to ask this question, and I want this question directed 
at us, because it obviously is. But I want to hear from you 
guys so that hopefully people will listen to this in their 
offices.
    How detrimental has it been for Congress' failure to 
complete our budget, get away from CRs, on your planning, your 
procurement, and your mission in your--in what you guys do? I 
mean, how detrimental has that been over the last, say, 5, 10 
years?
    This is your chance, Admiral Papp.
    Admiral Papp. Sir, as a former service chief who had to go 
through sequestration, and all kinds of other activities, it 
almost doubles your workload because you have to plan. You have 
to take your already limited staff and plan for multiple 
contingencies. You know, whether it is a government shutdown, 
whether it is an inability to award a contract to build a ship, 
and then going through processes to begin an orderly shutdown 
of the government by issuing notices to all of your civilian 
employees and others, and telling your military people that 
they still have to work, but they may not get paid.
    I mean, it is just tremendously frustrating for people, 
particularly people in uniform that are out there doing their 
job and they understand they have to continue to do their job, 
and not seeing the most simplest aspect of a government 
approving a budget come through in a timely manner so that they 
can work more effectively and keep things going.
    We have had to cancel conferences. We have had Arctic 
Council meetings where we have had to cancel at the last minute 
because we approached 1 October, and the budget hasn't been 
passed and, you know, things like that. So, I mean, it is 
almost now contingency planning in everything that you do, 
because even though you know that, okay, they are going to come 
through with a continuing resolution at the last moment, you 
still got to go through the process of preparing for a 
shutdown, or canceling conferences, and other things. So it is 
just tremendously inefficient.
    Mr. Yoho. In your opinion, is this one of the things that 
led down to the scale-down of the amount of icebreakers that we 
have? Commandant Michel?
    Admiral Michel. I don't think that was the main issue on 
the icebreakers was sort of from another genesis, but I echo 
what Admiral Papp said. I mean, the lack of certainty that you 
have in buying capital assets doesn't help the process, very 
detrimental to personnel, and I can tell you, it degrades 
morale within the organization.
    Mr. Yoho. Absolutely.
    Admiral Michel. People don't feel like they are valued, and 
they are being sent home. We have had reductions in operating 
hours and a whole bunch of other things, sir, that impacts us. 
The only reason I say on the icebreakers is, you know, we have 
had--the recapitalization challenges are of a much broader 
nature and they deal with sort of the responsibilities within 
the executive branch on recapitalization of the icebreaking 
fleet. And it is at such kind of a nascent stage during these 
latest cycles of sequestration, and so on and so forth, that I 
don't think that has been the primary driver for why we are 
where we are with the heavy icebreaking capability.
    Mr. Yoho. All right, I appreciate that. And of course, 
obviously, one of the things that does is that it winds up 
increasing the costs down the road, and you know, we are trying 
to save money. But in the end, the result, you know, we wind up 
costing us so much more money. So I just wanted to hear that 
because we knew that, but I want more people to hear that so 
that we get our act together up here. So I gave you some 
freedom there. Are you guys at the liberty to speak about the 
posturing of other countries, primarily Russia, and/or China, 
and what we can expect in the future up there? I mean, 
hopefully the goal is to keep it demilitarized, but as people 
get up there, territories and stakes get claimed. What are your 
thoughts on that? We will start with you, Admiral.
    Admiral Gallaudet. Yeah, thank you, Congressman Yoho. In 
regards to the posturing of Russia and China, I spoke 
previously about Russia in our opinion that their intention is 
primarily economic development and we feel no threat in the 
Arctic by the Russians.
    However, in addition, the Chinese and their work in the 
Arctic has been limited to either research with their 
icebreaker, the Snow Dragon, or just recently, you probably 
know that some of their surface ships conducted an innocent 
passage in our Arctic waters. They announced it well in 
advance. They followed international law, and in fact, it made 
a very good case for us to point to what they are doing in the 
South China Sea, and show that that was inconsistent and not 
following the rule of law.
    Mr. Yoho. Thank you.
    Admiral Michel. Sir, we actually have pretty good working 
relationships with our counterparts in both China and Russia. 
So for example, the Russians were just in New London, 
Connecticut, our Coast Guard Academy, to actually formally sign 
the agreement for their participation in the Arctic Coast Guard 
Forum, and that is going to be an operationally-focused agency 
that will run exercises on topics likes search and rescue, or 
environmental protection reasons. And we actually have quite a 
good working relationship, daily working relationship with the 
Russian Border Guard, who is our counterpart and we work on 
fisheries issues and search and rescue, and a whole bunch of 
things.
    As far as China goes, ours has all been cooperative with 
them as well, whether it is the Xue Long, or whether it is the 
China Coast Guard who participates in the North Pacific Coast 
Guard Forum which deals with Bering Sea issues or high-seas 
drift and enforcement, and a whole range of different issues.
    So from a Coast Guard wheelhouse, our relationships are 
surprisingly good, and they are beneficial for both countries, 
and we try to work very hard at those, sir.
    Mr. Yoho. Thank you. I appreciate your time and my time is 
up. But I appreciate your service. I appreciate what you do. 
And I hope Russia and China and we all work together andkeep 
it, you know, on the table, above the table.
    Mr. Rohrabacher. Thanks very much. We have about--well, I 
have got 6 minutes left. And let me just note that as we have 
heard through this questioning and your testimony that budget 
issues, more than weather issues, are determining what policies 
we take that will deal with the Arctic. So with that said and 
with that understanding that the budget challenges that we 
have, we are borrowing money, talking about China's role, how 
about the fact that they buy our debt, and that one out of 
every $5 we spend, is borrowed money?
    So with that said, we need to focus on the economic element 
of the plan. And let me suggest that perhaps whatever cost is 
needed to maximize the benefit, the American people, and the 
people of the world, will have from the Arctic has to be not 
just a signing of checks by the Federal Government and passing 
them on, but instead, perhaps different ways of approaching a 
very costly program and project, which is utilizing the Arctic 
for its best uses to benefit mankind and benefit the United 
States.
    Contracting out rather than buying icebreakers, we hear 
that icebreakers are the ultimate, right now, capital asset 
that is necessary to ensure that this--we get the value out of 
the Arctic. There is no reason to have to buy them, is there? I 
mean, SpaceX, I think, has actually, or gone into, how about 
private sector-public sector partnerships? How about allowing 
buying a cheaper, or buying the same ship in from Finnish 
shipyards? These are all things that could impact on the 
economic decision as to what we should move forward with.
    And I am sure that you agree that these things should be at 
least explored to see how much potential we can get out of 
contracting out, having somebody else build the ships, perhaps 
public partnerships. And again, which you have demonstrated 
which is music to my ears, which is cooperation, international 
cooperation to make sure that we are--others are picking up a 
large portion, or at least a portion of the cost that will 
benefit everybody.
    But lastly, how about if there is going to be a harvesting 
of fish, or an extraction of minerals, or oil, and gas, would 
it be possible for us to have a user fee, or a tax on those 
specifically, that wealth coming from there, that because after 
all, if it is dependent on our resources to keep that avenue 
open, that wouldn't be necessarily a tax. That would be a user 
fee for those businesses that are involved in Arctic 
enterprise. Is that a possibility?
    Admiral Michel. Sir, we have been dealing with user fees in 
the past, and that has always required legislative authority. 
The Coast Guard does not have organic authority to impose user 
fees, for example, for search and rescue services and things 
like that, and we traditionally don't do that.
    Mr. Rohrabacher. Right.
    Admiral Michel. If Congress were to direct it by 
legislation, then I assume that Congress can----
    Mr. Rohrabacher. Maybe there could be certain areas that 
are designated as high risk areas that will depend on 
government assets to achieve an end, and thus, if you are going 
to be making a profit from that area, there is a payment that 
would be required for the government providing that service. 
Just a thought.
    I have 3 minutes to go and vote. I want to thank all of 
your for your testimony. I will read exactly what you said. I 
think this has been very beneficial to start this discussion. 
And again, a lot of the things that you have been saying has 
been music to my ears. Good luck to you all. This hearing is 
adjourned.
    [Whereupon, at 3:17p.m., the subcommittees were adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
